BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.

Records

JULIE

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound
copy and 40 copies of the foregoing Brief of
Massachusetts, California, Colorado, Connecticut,
Delaware, the District of Columbia, Hawai'i, Illinois,
Maine, Maryland, Michigan, Minnesota, Nevada, New
Mexico, New York, North Carolina, Oregon, Rhode
Island, Vermont, Virginia, and Washington as Amici
Curiae in Support of Pennsylvania and New Jersey in
19-431, Little Sisters of the Poor Saints Peter and Paul
Home v. Pennsylvania, et al., and 19-454, Donald J.
Trump, President of the United States, et al. v.
Pennsylvania, et al., were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 8th day of April, 2020:
Mark Leonard Rienzi
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., NW
Suite 700
Washington, DC 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Little Sisters of the Poor Saints Peter
and Paul Home

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A. KERSHNER, J.D.

Noel Francisco
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov

Counsel for Donald J. Trump, President of the
United States, et al.
Michael J. Fischer
Pennsylvania Office of Attorney General
1600 Arch St.
Suite 300
Philadelphia, PA 19103
(215) 560-2171
mfischer@attorneygeneral.gov

Counsel for Commonwealth of Pennsylvania, et al.
Maura Healey
Attorney General of Massachusetts
Elizabeth N. Dewar
State Solicitor
Counsel of Record
Julia E. Kobick
Jon Burke
Assistant Attorneys General
One Ashburton Place
Boston, MA 02108
(617) 963-2204
bessie .dewar@mass.gov

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on April 8, 2020.

Donna J. W
Becke.r Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

Qp;!

Notary~
[seal]

{J.

f t c£,60

~

